            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION



        SINGLE AUDIT OF THE
        STATE OF MARYLAND
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2005

    OCTOBER 2006    A-77-07-00002




  MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                       SOCIAL SECURITY
MEMORANDUM
Date:      October 27, 2006                                                    Refer To:

To:        Candace Skurnik
           Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the State of Maryland for the Fiscal Year
           Ended June 30, 2005 (A-77-07-00002)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the State of Maryland for the Fiscal Year ended June 30, 2005. Our objective
           was to report internal control weaknesses, noncompliance issues, and unallowable
           costs identified in the single audit to SSA for resolution action.

           Abrams, Foster, Nole & Williams, P.A. (AFNW) performed the audit. Results of the
           desk review conducted by the Department of Health and Human Services (HHS) have
           not been received. We will notify you when the results are received if HHS determines
           the audit did not meet Federal requirements. In reporting the results of the single audit,
           we relied entirely on the internal control and compliance work performed by AFNW and
           the reviews performed by HHS. We conducted our review in accordance with the
           Quality Standards for Inspections issued by the President’s Council on Integrity and
           Efficiency.

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
           CFDA number 96. SSA is responsible for resolving single audit findings reported under
           this CFDA number.

           The Maryland Disability Determination Services (DDS) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal
           regulations. The DDS is reimbursed for 100 percent of allowable costs. The Maryland
           State Department of Education (MSDE) is the Maryland DDS’ parent agency.
Page 2 – Candace Skurnik

The single audit reported that the MSDE did not properly reconcile the financial
statements with the general ledger balances, resulting in incorrect receivable balances
being carried forward each year. As a result, the accuracy of Federal cash draws may
have been impacted. The corrective action plan indicated that MSDE agreed with the
finding, but stated that on a total basis, receivables reconciled between the financial
statements and the General Ledger, and by December 31, 2006 receivables would be
reconciled by grant (Attachment A, pages 1 and 2).

The Office of the Inspector General is currently conducting an audit of Administrative
Costs Claimed by the Maryland DDS (A-13-06-16029) that covers part of the same time
period as this single audit. The administrative cost audit will review Federal cash draws
made by the Maryland DDS and report any problems. Accordingly, we are not making a
recommendation on this single audit finding.

The single audit also identified that MSDE charged administrative expenses in excess
of the amount allocated in the Federal award (Attachment B, pages 1 and 2). Although
this finding was not specifically identified to SSA it may have an impact on DDS
operations. I am bringing this matter to your attention as it represents a potentially
serious service delivery and financial control problem for the Agency.

Please send copies of the final Audit Clearance Document to Shannon Agee and
Rona Lawson. If you have questions contact Shannon Agee at (816) 936-5590.




                                               Patrick P. O’Carroll, Jr.

Attachments
Attachment A
  Page 1 of 2
Attachment A
  Page 2 of 2
Attachment B
  Page 1 of 2
Attachment B
  Page 2 of 2
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
